 OFFICE OF AUDIT
 REGION V
 CHICAGO, IL




       HUD’s Office of Single Family Housing’s
      Oversight of Lenders’ Underwriting of FHA-
        Insured Loans Was Generally Adequate




2012-CH-0001                           AUGUST 17, 2012
                                                        Issue Date: August, 17, 2012

                                                        Audit Report Number: 2012-CH-0001




TO:          Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM:        Kelly Anderson, Regional Inspector General for Audit, 5AGA

SUBJECT      HUD’s Oversight of Lenders’ Underwriting of FHA-Insured Loans Was
               Generally Adequate


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the HUD’s Oversight of Lenders’
Underwriting of FHA-Insured Loans.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
312-353-7832.




                                                  
                                            Date of Issuance: August 17, 2012
                                            HUD’s Office of Single Family Housing’s Oversight of
                                            Lenders’ Underwriting of FHA-Insured Loans Was
                                            Generally Adequate


Highlights
Audit Report 2012-CH-0001



 What We Audited and Why                     What We Found

We audited the U.S. Department of           HUD generally had adequate oversight of lenders’
Housing and Urban Development’s             compliance in underwriting FHA-insured loans. Its
(HUD) oversight of Federal Housing          Processing and Underwriting and Quality Assurance
Administration (FHA)-insured loans.         Divisions appropriately identified lenders’
We initiated the audit as part of the       underwriting deficiencies and initiated appropriate
activities in our 2011 annual audit plan    corrective actions, with the exception of two out of the
and strategic plan. Our audit objective     18 loans reviewed by its Quality Assurance Division.
was to determine whether HUD had            For these loans, HUD’s Quality Assurance Division
adequate oversight of lenders’              did not (1) require the lender to correct an error that it
compliance with FHA’s underwriting          identified during a review for one loan or (2) identify a
requirements.                               material underwriting deficiency for the other. The
                                            weaknesses occurred because HUD did not adequately
 What We Recommend                          oversee the quality assurance loan file review process.
                                            As a result, HUD incurred losses totaling $280,107 on
                                            the disposal of the associated properties.
We recommend that the Deputy
Assistant Secretary for Single Family
Housing require the Office of Single
Family Housing to (1) determine
whether FHA loan number 095-
1259735 was covered under the
settlement with Flagstar Bank FSB, (2)
ask the lender to provide adequate
supporting documentation for FHA case
number 541-8917153 to show that the
two remaining borrowers were eligible,
using credit-qualifying streamline
refinancing, or reimburse HUD for
$89,052 for the actual loss incurred on
the disposal of the associated property;
and (3) improve its existing policies and
procedures to address the issues
identified in this report.




                                                    
                           TABLE OF CONTENTS

Background and Objectives                                                       3

Results of Audit
      Finding: HUD Generally Performed Adequate Reviews of FHA-Insured Loans    4

Scope and Methodology                                                           8

Internal Controls                                                              10

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use           11
B.    Auditee Comments and OIG’s Evaluation                                    12
C.    Federal Requirements                                                     16




                                            2
                      BACKGROUND AND OBJECTIVES

The Federal Housing Administration (FHA) provides mortgage insurance on loans made by
FHA-approved lenders throughout the United States and its territories. FHA insures mortgages
on single-family and multifamily homes including manufactured homes and hospitals. It is the
largest insurer of mortgages in the world, having insured more than 34 million properties since
its inception in 1934. FHA mortgage insurance provides lenders with protection against losses
as the result of homeowners defaulting on their mortgage loans. The lenders bear less risk
because FHA will pay a claim to the lender in the event of a homeowner’s default. Loans must
meet certain requirements established by FHA to qualify for insurance.

The U.S. Department of Housing and Urban Development’s (HUD) Office of Housing provides
vital public services through its nationally administered programs. It oversees FHA as well as
regulating housing industry business. The mission of the Office of Housing is to (1) contribute
to building and preserving healthy neighborhoods and communities; (2) maintain and expand
home ownership, rental housing, and healthcare opportunities; (3) stabilize credit markets in
times of economic disruption; (4) operate with a high degree of public and fiscal accountability;
and (5) recognize and value its customers, staff, constituents, and partners. The Office of Single
Family Housing provides guidance for and oversight of the lenders and loan correspondents that
participate in its mortgage insurance programs. The two main oversight authorities are HUD’s
Office of Lender Activities and Program Compliance’s Quality Assurance Division and the
Homeownership Centers’ Processing and Underwriting Division.

The Office of Lender Activities and Program Compliance’s Quality Assurance Division is
responsible for monitoring FHA-approved lenders. In performing its monitoring duties, the
Quality Assurance Division assesses lenders’ performance, internal controls, and compliance
with HUD’s origination and servicing requirements through onsite reviews and offsite
evaluations and analyses. The internal quality control function is intended to ensure that reviews
are conducted and deficiencies are identified consistently and an accurate tracking database of
reviews is maintained.

HUD’s Homeownership Centers located in Philadelphia, PA, Denver, CO, Santa Ana, CA, and
Atlanta, GA, originate FHA single-family mortgage insurance and oversee the selling of HUD
homes in their respective jurisdictions. Within the Homeownership Centers is the Processing
and Underwriting Division. The Processing and Underwriting Division performs
postendorsement technical reviews to ensure that lenders understand and comply with HUD’s
requirements. To execute this function, the Division reviews selected mortgages after
endorsement. The process includes a review of the appraisal report, mortgage credit analysis,
underwriting decisions, and closing documents from the mortgage case endorsement file.

Our audit objective was to determine whether HUD had adequate oversight of the underwriting
of FHA-insured loans. Specifically, we wanted to determine whether HUD (1) appropriately
identified lenders’ underwriting deficiencies and (2) initiated appropriate corrective actions when
warranted.


                                                3
                                     RESULTS OF AUDIT


Finding: HUD Generally Performed Adequate Reviews of FHA-Insured
Loans
HUD generally had adequate oversight of lenders’ compliance in underwriting FHA-insured
loans. Specifically, it appropriately identified underwriting deficiencies and initiated corrective
actions, with the exception of two out of the 18 loans reviewed by its Quality Assurance
Division. For these loans, HUD’s Quality Assurance Division did not (1) require the lender to
correct an error that it identified during a review for one loan or (2) identify a material
underwriting error for the other. The weaknesses occurred because HUD did not adequately
oversee the quality assurance loan file review process. As a result, HUD incurred losses totaling
$280,107 on the disposal of the associated properties.




    HUD’s Postendorsement
    Technical Reviews Were
    Generally Adequate


                 HUD’s Processing and Underwriting Division generally performed
                 postendorsement technical reviews and resolved identified underwriting
                 deficiencies in accordance with its internal policies and procedures. We reviewed
                 16 of 18 loans selected to evaluate the results of the postendorsement technical
                 reviews and corrective actions if applicable.1 For the 16 loans reviewed, we
                 reexamined applicable loan documents such as the borrowers’ cash assets used to
                 meet the minimum required investment, employment and income records,
                 liabilities, and credit characteristics and did not identify any significant
                 discrepancies from the underwriting deficiencies identified during the
                 postendorsement technical review. Further, we determined that the Division
                 initiated corrective actions in accordance with its internal postendorsement
                 technical review policies and procedures to resolve the identified underwriting
                 deficiencies. For the cases that could not be mitigated, the loans were referred to
                 the Quality Assurance Division for further review.

    HUD’s Quality Assurance
    Reviews Were Generally
    Adequate

1
     Although we selected 18 loans, we were only able to review 16 because HUD’s Processing and Underwriting
     Division had referred the remaining 2 to HUD’s Quality Assurance Division for further review.


                                                       4
                                                        
                 HUD’s Quality Assurance Division generally performed quality assurance
                 reviews and resolved identified underwriting deficiencies in accordance with its
                 internal policies and procedures for 16 of the 18 loans reviewed. For the
                 remaining two loans, the reviewers did not (1) identify an underwriting deficiency
                 or (2) require a lender to correct an underwriting deficiency that was identified
                 during the quality assurance review. Specifically, for FHA case number 541-
                 8917153, the original mortgage before refinancing contained three borrowers (one
                 primary borrower and two coborrowers). When reviewing the loan, the reviewer
                 did not identify that one of the coborrowers had been deleted from the original
                 mortgage. Therefore, a credit-qualifying streamline refinance should have been
                 used to determine whether the remaining two borrowers were eligible for
                 refinancing.

                 According to HUD, the borrowers’ loan file did not contain evidence that the
                 second coborrower was on the original mortgage or that this coborrower was
                 credit-qualifying on the original loan before refinancing. Therefore, the lender
                 would not have known about the second coborrower. However, when we
                 reviewed the commitment for title insurance policy that was in the borrowers’
                 loan file, the second coborrower was identified as a borrower on the original
                 mortgage with Countrywide Bank FSB. According to HUD’s requirements, a
                 refinance transaction involves repaying an existing real estate debt from the
                 proceeds of a new mortgage that has the same borrower(s) and the same
                 property.2 Additionally, it states that credit-qualifying streamline refinances
                 contain all the normal features of a streamline refinance but provide a level of
                 assurance of continued performance on the mortgage. The lender must provide
                 evidence that the remaining two borrowers (primary borrower and a coborrower)
                 have an acceptable credit history and the ability to make payments.3 As of
                 February 29, 2012, HUD had incurred a loss of $89,052 on the disposal of the
                 associated property.

                 For case 095-1259735, the review identified that the coborrower had been deleted
                 from original mortgage, which would trigger the due-on-sale clause4; thus, the
                 lender should have performed a credit-qualifying streamline refinance to
                 determine whether the remaining borrower was eligible for refinancing.
                 However, the reviewer did not report this deficiency to the lender for corrective
                 action. According to HUD, the reviewer should have notified the lender that this
                 loan file did not comply with HUD’s requirements. The lender should have
                 performed a credit-qualifying streamline refinance transaction, thus requiring the
                 borrower to provide evidence of cash to close. As of February 29, 2012, the note


2
    HUD Handbook 4155.1, REV-5, paragraph 1.10. See appendix C
3
    HUD Handbook 4155.1, REV-5, paragraph 1.12(C). See appendix C
4
    A due-on-sale clause is a clause in a loan or promissory note that puts a condition that the full balance may be
    called due upon sale or transfer of ownership of the property used to secure the note. The lender has the right,
    but not the obligation, to call the note due in such a circumstance.

                                                          5
                                                            
             was assigned to HUD for insurance benefits. HUD incurred a loss of $191,055 on
             the disposal of the associated property.

HUD’s Quality Assurance
Division Needs To Improve Its
Oversight of Reviewers in The
Loan Files Review Process


             HUD’s Quality Assurance Division needs to improve its oversight of its reviewers
             in the loan file review process. According to HUD, for case number 095-
             1259735, through the process of cutting and pasting, the finding was inadvertently
             omitted by the reviewer when attempting to transfer the results of the review onto
             the communications (final findings letter) to the lender. For case number 541-
             8917153, HUD contended that the lender would not have known about the second
             coborrower. Therefore, the reviewer performed the review in accordance with its
             requirements. However, the borrowers’ loan file contained documentation
             showing that there were three borrowers on the original mortgage. Therefore,
             HUD could benefit from improvements to its procedures, which would reduce
             errors and enhance the quality of the loan file reviews.

Conclusion

             HUD’s Processing and Underwriting and Quality Assurance Divisions generally
             had adequate oversight of lenders’ compliance in underwriting FHA-insured
             loans. Specifically, both Divisions appropriately identified lenders’ underwriting
             deficiencies and initiated appropriate corrective actions, with the exception of two
             loans reviewed by HUD’s Quality Assurance Division. The weaknesses occurred
             because HUD did not adequately oversee the quality assurance loan file review
             process. HUD incurred losses totaling $280,107 on the disposal of the associated
             properties.

Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing
             require the Office of Single Family Housing to

             1A.    Determine whether the FHA loan number 095-1259735 is covered under
                    the settlement that Flagstar Bank FSB entered with HUD. If it is
                    determined that this loan is not covered by the settlement, HUD should
                    reopen the case and ask the lender to provide support documentation or
                    reimburse HUD for the actual loss totaling $191,055 incurred on the
                    disposal of the associated property.




                                              6
                                                
1B.   Ask the lender to provide adequate supporting documentation to show that
      the two remaining borrowers were eligible, using credit-qualify streamline
      refinancing, or reimburse HUD $89,052 for the actual loss incurred on the
      disposal of the associated property for FHA loan number 541-8917153.

1C.   Improve its existing policies and procedures to ensure it has adequate
      oversight of its reviewers in the loan file review process which would
      enhance the quality of loan files reviewed.




                               7
                                 
                                SCOPE AND METHODOLOGY

    Our audit work was performed at the Chicago regional office, and the Detroit field office
    between September 29, 2011 and March 31, 2012. The audit covered the period August 1, 2009,
    to August 31, 2011, but was modified as necessary. We relied partly on computer-processed
    data for our reviews of the FHA case binders. Although we did not perform a detailed
    assessment of the reliability of the data, we performed a minimal level of testing and found the
    data to be adequate for our purposes. The testing entailed matching electronic data maintained in
    HUD’s Single Family Housing Enterprise Data Warehouse5 system to hardcopy case binder
    documentation for the loans. To accomplish our audit objectives, we researched and reviewed
    applicable HUD handbooks, regulations, mortgagee letters, and other reports and policies related
    to the program. We also interviewed and communicated with HUD’s staff and management as
    appropriate.

    Postendorsement Technical Reviews

    Using HUD’s data maintained in its Single Family Data Warehouse system, we identified that
    19,346 loans were reviewed by HUD’s Processing and Underwriting Division during the period
    October 4, 2010, to August 31, 2011. Of the 19,346 loans, 6,733 were initially rated as
    unacceptable. We used statistical sampling to generate a random sample of 54 from 6,733 loans
    to review. Based on this sample, we randomly selected 18 loans for a preliminary review.
    However, we were only able to review 16 of the loans because the remaining 2 loans had been
    referred to HUD’s Quality Assurance Division for further review. Therefore, we were unable
    review these two loan files. Our review of the 16 loan files disclosed that HUD’s Processing and
    Underwriting Division generally initiated corrective actions in accordance with its internal
    postendorsement technical review policies and procedures to resolve the identified underwriting
    deficiencies; therefore, we did not review the remaining 36 loans in our sample.

    In performing our review of the 16 loans selected for postendorsement technical review, we

           Performed our own analysis of the documentation maintained in the FHA case binders
            and postendorsement technical review files to support that the borrowers met eligibility
            requirements and the accuracy of the calculations.
           Obtained additional documentation from the originating or sponsoring lenders as
            applicable.
           Compared our results with the reviewer’s notations on the respective review sheets and
            determined whether the items identified were complete if applicable. 

    We also reviewed the postendorsement technical review desk guide developed by HUD
    headquarters’ and Homeownership Centers’ postendorsement technical review working group.
    Effective October 4, 2010, the postendorsement technical review process was revised to promote

5
       HUD’s Single Family Housing Enterprise Data Warehouse system is a large and extensive collection of
       database tables organized and dedicated to support the analysis, verification, and publication of single-family
       housing data.

                                                             8
                                                              
    better risk analysis, promote consistency throughout the Homeownership Centers, provide for
    data integrity, and promote efficiency with data management and report generation through
    automation.

    Quality Assurance Division Review

    Using HUD’s data maintained in its Approval Recertification and Review Tracking System6
    provided by Quality Assurance Division and data maintained in the Single Family Housing
    Enterprise Data Warehouse system, we identified 10,864 FHA-insured loans endorsed between
    August 1, 2009, and August 31, 2011, that were reviewed by the Quality Assurance Division. Of
    the 10,864 loans, HUD paid claims on 467. Of the 467 loans, Quality Assurance Division
    identified 47 as having underwriting deficiencies. For our preliminary review, we randomly
    selected 18 of the 47 loans to review. Our review of the 18 loans disclosed that HUD’s Quality
    Assurance Division generally performed quality assurance reviews and resolved identified
    underwriting deficiencies in accordance with its internal policies and procedures; therefore, we
    did not review the remaining 29 loans.

    In performing our review of the quality assurance review process, we

           Performed our own analysis of the documentation maintained in the FHA case binders
            and quality assurance review files to support that the borrowers met eligibility
            requirements and the accuracy of the calculations.
           Obtained additional documentation from the originating or sponsoring lenders as
            applicable.
           Reviewed the quality assurance review sheets and other documentation maintained in the
            files used in the quality assurance review process and the criteria applicable to the
            program.
           Compared our results with the reviewers’ notations on the respective review sheets and
            determined whether the items identified were complete if applicable. 

    We also reviewed the quality assurance desk guide developed by the headquarters Quality
    Assurance Division. The desk guide describes the Division’s process for targeting high-risk
    lenders and preparing for various reviews and related documentation requirements. The desk
    guide was last updated in 2009 and is undergoing another update.

    We conducted the audit in accordance with generally accepted government auditing standards.
    Those standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our finding and conclusions based on our audit
    objective(s). We believe that the evidence obtained provides a reasonable basis for our finding
    and conclusions based on our audit objective.




6
       The Approval Recertification and Review Tracking System is a HUD system that is used to track incoming
       application and recertification packages from lenders and to monitor reviews of approved lenders.


                                                         9
                                                           
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

                     Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A significant weakness exists when the design or operation of a control does not
               allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on
               a timely basis.




                                                10
                                                  
                                APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS

                        Recommendation         Unsupported 1/
                            number

                              1A                 $191,055

                              1B                  $89,052

                           Totals                 $280,107


1/     Unsupported costs are those costs charged to a HUD-financed or HUD-insured
       program or activity when we cannot determine eligibility at the time of the audit.
       Unsupported costs require a decision by HUD program officials. This decision, in
       addition to obtaining supporting documentation, might involve a legal interpretation
       or clarification of departmental policies and procedures.




                                          11
                                            
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         12
                           
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         13
                           
Ref to OIG Evaluation   Auditee Comments




Comment 3




                         14
                           
                         OIG Evaluation of Auditee Comments

Comment 1   HUD agreed with the discussion draft audit report’s Recommendation 1A. As
            recommended, it determined that FHA case number 095-1259735 was included in
            its settlement agreement, dated February 24, 2012, with Flagstar Bank FSB.
            Further, HUD contacted the lender to obtain additional documentation indicating
            that the lender approved the loan as a credit qualifying streamline refinance.
            Since HUD implemented our recommendation, we consider this implementation
            as an agreed upon management decision. Thus, this recommendation will be
            closed in conjunction with the final issuance of this audit report.

Comment 2   HUD agreed with the discussion draft audit report’s Recommendation 1B. As
            recommended, it asked the lender to provide adequate supporting documentation
            to demonstrate that the two remaining borrowers were eligible for FHA credit
            qualifying streamline refinancing without an appraisal. HUD requested that the
            lender either provides supporting documentation or sign an indemnification
            agreement to reimburse it for the associated loss on the disposal of the property.
            Since HUD implemented our recommendation, we consider this implementation
            as an agreed upon management decision.

Comment 3   HUD agreed with the discussion draft audit report’s Recommendation 1C. HUD
            provided training to its staff in the Philadelphia HOC, and will issue a
            memorandum to its entire QAD staff emphasizing the lender monitoring
            requirements. We commend HUD for continuing to improve its policies and
            procedures, system controls, and reporting tools, to strengthen its risk
            management.




                                            15
                                               
Appendix C
                           FEDERAL REQUIREMENTS

HUD’s Quality Assurance Division Desk Guide, effective August 2009, states that the purpose
of the Quality Assurance Division is to protect HUD-FHA from unacceptable risk by assessing
lender performance, internal controls, and compliance with HUD-FHA origination and servicing
requirements, as well as requiring corrective measures or initiating enforcement actions as
appropriate. The Quality Assurance Division monitors lender performance and takes appropriate
actions to manage risk, mitigate losses, and curtail unacceptable practices.

Chapter 5, of the desk guide states that (HUD’s reviewers should) review credit report(s), payoff
statement, title commitment, warranty deed, appraisal report(s), and HUD-1 settlement statement
to confirm eligibility requirements have been met, and that the maximum mortgage calculation is
correct.

HUD Handbook 4155.1, REV-5, paragraph 1.10, states that a refinance transaction involves
repaying an existing real estate debt from the proceeds of a new mortgage that has the same
borrower(s) and the same property.

Paragraph 1.12(C) of the Handbook states that credit-qualifying streamline refinances contain all
the normal features of a streamline refinance but provide a level of assurance of continued
performance on the mortgage. The lender must provide evidence that the remaining borrowers
have an acceptable credit history and the ability to make payments. Credit-qualifying streamline
refinance may be used when (b) deletion of a borrower or borrowers will trigger the due-on-sale
clause or (c) following an assumption of a mortgage that does not contain restrictions (such as
due-on-clause) limiting assumptions only to creditworthy borrowers and the assumption occurred
less than 6 months previously or (d) following an assumption of a mortgage in which the
transferability restriction (such as due-on-clause) was not triggered, such as in a property transfer
resulting from a divorce decree or by devise or descent and the assumption occurred less than 6
months previously.




                                                 16
                                                   
